                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Case Number: 113060036                                                                        Page 1 of 1



         OIG received a Suspicious Activity Report (SAR) regarding a Subject 1 possibly misusing NSF
         funds. 2 Our initial analysis of the SAR revealed that the Subject is already under investigation3 in
         this office. It was determined that the allegation relating to the Subject should be examined as
         part of the currently ongoing investigation. All information concerning the Subject has been
         copied and incorporated into that ongoing investigation.

         Accordingly, this case is closed.




         I
         2




NSF OIG Form 2 (11/02)
